WAIVER

SUPREME COURT OF THE UNITED STATES

No. [20-1623 |

j
David Paul Bohler | City of Fairview, Tennessee
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
Oo Lam filing this waiver on behalf of all respondents.

© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Noseph Cox and Timothy Shane Dunning

|
|

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: | Bo Vista

Date: 6/17/21

(Type or print) Name Dan L. Nolan

© mr. O Ms. O mrs. O Miss
Firm Batson Nolan PLC |
Address 121 South Third Street |
City & State Clarksville, TN | Zip 37040 |
Phone (931) 436-9739 | Email {dinclan@batsonnolan.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Paul Andrew Justice, III

oe Kristin Berexa
